No. 20-843

 

IN THE
Supreme Court of the United States

NEw YORK STATE RIFLE & PISTOL ASSOCIATION, INC., ROB-
ERT NASH, BRANDON Koc,

Petitioners,
Vv.

KEVIN P. BRUEN, in His Official Capacity as
Superintendent of the New York State Police, RICHARD
J. MCNALLY, JR., in His Official Capacity as Justice of
the New York Supreme Court, Third Judicial District,
and Licensing Officer for Rensselaer County,

Respondents.

On Writ Of Certiorari To The
U.S. Court Of Appeals For The Second Circuit

BRIEF OF AMICI CURIAE THE NATIONAL COALI-
TION AGAINST DOMESTIC VIOLENCE, THE BAT-
TERED WOMEN’S JUSTICE PROJECT, JEWISH
WOMEN INTERNTIONAL, THE NATIONAL DOMES-

TIC VIOLENCE HOTLINE, AND THE NATIONAL RESOURCE
CENTER ON DOMESTIC VIOLENCE IN
SUPPORT OF RESPONDENTS

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
4,609 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on September 21, 2021.

f be —
